 

IN THE

SUPREME COURT OF THE UNITED STATES

 

ANTHONY L. INGRAM,
PETITIONER,
v.
UNITED STATES OF AMERICA,

RESPONDENT.

 

MOTION FOR LEAVE TO PROCEED IN FORMA PAUPERIS

Petitioner, Anthony L. Ingram, pursuant to Rule 39, of the Rules of the
Supreme Court of the United States, herein asks leave to file the attached
Petition for Writ of Certiorari without prepayment of costs, and to proceed in
forma pauperis, Petitioner was represented in the Sixth Circuit Court of
Appeals by undersigned counsel who was appointed by the United States
District Court pursuant to the Criminal Justice Act, 18 U.S.C. ยง 3006A.

Respectfully submitted,

GRETCHEN A. HOLDERMAN (390058508)

Lillie & Holderman

6505 Rockside Road, Suite 118

Independence, Ohio 44131

T:216-861-1313/F:216-861-1314
holderman@lillicholderman.com

 
